No. ________
IN THE
SUPREME COURT OF THE UNITED STATES
_____________________
CAMERON BATTISTE,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
_____________________
CERTIFICATE OF SERVICE
Pursuant to 28 U.S.C. ยง 1746, I, Daniel John Hillis, hereby declare as follows:
1.
That I was appointed to represent Mr. Cameron Battiste pursuant to
the Criminal Justice Act of 1964, 18 U.S.C. ยง 3006A, and have represented him in
the Central District of Illinois as well as the Seventh Circuit Court of Appeals; and
2.
That on October 28, 2020, a copy of the petition for writ of certiorari
and motion to proceed in forma pauperis in the above-entitled case were deposited
with Federal Express in Champaign, Illinois, properly addressed to the Clerk of the
United States Supreme Court and within the time for filing said petition for writ of
certiorari; and
3.
That an additional copy of the petition for writ of certiorari and motion
to proceed in forma pauperis were served upon the following counsel of record for
Respondent:
Solicitor General of the United States
United States Department of Justice
950 Pennsylvania Ave. N.W.
Room 5616
Washington, D.C. 20530-001
SupremeCtBriefs@usdoj.gov
Saurish Appleby-Bhattacharjee, Attorney
Office of the United States Attorney

219 S. Dearborn Street, 5th Floor
Chicago, IL 60604
I declare under penalty of perjury that the foregoing is true and correct.
Executed on October 28, 2020

s/ Daniel John Hillis
Daniel John Hillis

